APPENDIX

APPENDIX
TABLE OF CONTENTS
Opinion in the United States Court of Appeals for the Eleventh Circuit
(March 17, 2021) .............................................................................................. App. 1
Order in the United States District Court Middle District of Florida Ocala
Division
(January 16, 2020)......................................................................................... App. 11
Judgment in a Civil Case in the United States District Court Middle District
of Florida Ocala Division
(January 17, 2020)......................................................................................... App. 41

i

USCA11 Case: 20-10379

Date Filed: 03/17/2021

Page: 1 of 10

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 20-10379
Non-Argument Calendar
________________________
D.C. Docket No. 5:17-cv-00039-WFJ-PRL

DAVID J. TATARA,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
(March 17, 2021)
Before WILLIAM PRYOR, Chief Judge, JORDAN and GRANT, Circuit Judges.
PER CURIAM:

App. 1

USCA11 Case: 20-10379

Date Filed: 03/17/2021

Page: 2 of 10

David Tatara, a Florida prisoner, appeals the denial of his petition for a writ
of habeas corpus. 28 U.S.C. § 2254. Tatara argued that the Double Jeopardy
Clause of the Fifth Amendment barred the trial court from submitting to a jury the
charge of second-degree murder as a lesser-included offense after determining that
Florida could not prove the predicate felony of aggravated child abuse for firstdegree murder. Because the “state courts are the final arbiters of state law”
concerning lesser-included offenses, Callahan v. Campbell, 427 F.3d 897, 932
(11th Cir. 2005), and the continuation of Tatara’s prosecution was not contrary to
nor involved an unreasonable application of clearly established federal law, we
affirm.
Tatara’s conviction stemmed from the death of fifteen-month-old B.R. A
grand jury in Florida indicted Tatara on two counts of child abuse, Fla. Stat.
§ 827.03(3)(b), one count of aggravated child abuse for “maliciously punishing”
B.R. by “willfully committ[ing] child abuse upon him by inflicting severe trauma
to his head” and “causing him to suffer great bodily harm,” id. § 827.03(2)(b), (e),
and one count of first-degree murder for killing B.R. “while engaged in . . . [the]
felony . . . of aggravated child abuse . . . by inflicting blunt force trauma to his
head,” id. § 782.04(1)(a)2. The trial court severed Tatara’s two counts of child
abuse for a separate trial, and the state later nol prossed the two charges.

2
App. 2

USCA11 Case: 20-10379

Date Filed: 03/17/2021

Page: 3 of 10

During Tatara’s trial, Dr. Barbara Wolf, the state medical examiner, testified
that B.R. was a victim of homicide caused by blunt force trauma to his head. Dr.
Wolf observed an abrasion on the back of B.R’s head, a laceration on the tip of his
tongue, and that he was missing one of his front teeth. Dr. Wolf discovered that
B.R. had a fracture near the bottom of his skull in an area of the occipital bone that
was not susceptible to fracture. And her autopsy revealed that B.R. had a subgaleal
hemorrhage, his brain had swelled to the point of bulging and caused his skull
sutures to widen, he had a small subdural hematoma and a subarachnoid
hemorrhage, he had bled on both sides of his optic nerve, and he had retinal
hemorrhages. Under cross-examination, Dr. Wolf acknowledged that she could not
determine whether B.R. suffered more than one blow to the head because “when
injuries are localized in one area, there’s no way . . . [to] tell if someone, for
example, was hit in the same area once or multiple times.”
After the state rested, Tatara moved for a judgment of acquittal. Tatara
argued that the evidence of a single blow to B.R.’s head was insufficient to convict
him of aggravated child abuse and that he could not be convicted of the underlying
felony and first-degree murder under the merger doctrine. See Brooks v. State, 918
So. 2d 181 (Fla. 2005), receded from in Sturdivant v. State, 94 So. 3d 434, 436
(Fla. 2012) (“hold[ing] that the merger doctrine does not preclude a felony-murder
conviction predicated upon a single act of aggravated child abuse that caused the
3
App. 3

USCA11 Case: 20-10379

Date Filed: 03/17/2021

Page: 4 of 10

child’s death”). The trial court reserved ruling on Tatara’s motion. But during a
conference on jury instructions, the trial court stated that it was “inclined to grant
the JOA” on first-degree murder.
Tatara renewed his motion for an acquittal at the conclusion of the evidence.
The trial court “granted the Motion for Acquittal on the first-degree felony
murder” and ruled that the jury could “consider second-degree murder and child
abuse.” Next, the trial court determined that the abuse merged into the homicide
and that it would submit the case to the jury on “second-degree murder and any
lessers of second degree.” The parties agreed to modify the jury instructions, and
the trial court stated that he would instruct the jury that they would “not be
considering first-degree murder or aggravated child abuse,” to “disregard the
charges read from the indictment” about those two offenses, and to consider only
“second-degree murder and the lessers of second-degree murder.”
The state prepared a “dummy” information that charged Tatara with seconddegree murder for “unlawfully, by an act imminently dangerous to another, and
evincing a depraved mind, regardless of human life, although without any
premeditated design, kill[ing] [B.R.] . . . by inflicting blunt force trauma to his
head, in violation of Sec. 782.04(2), Fla. Stat.” Tatara objected to the “dummy”
information and argued that he had not been arraigned on second-degree murder
and that jeopardy had already attached. The trial court overruled the objection with
4
App. 4

USCA11 Case: 20-10379

Date Filed: 03/17/2021

Page: 5 of 10

the explanation that some of the jury instructions “[did not] make sense” without
giving the jury a charging document.
The jury convicted Tatara of second-degree murder. Later, the trial court
sentenced Tatara to imprisonment for life and entered a judgment of not guilty on
the charge of aggravated child abuse. Tatara appealed, and the state court affirmed
his conviction summarily. Tatara v. State, 119 So. 3d 1265 (Fla. Dist. Ct. App.
2013).
Tatara filed a motion for postconviction relief, which the state court denied.
See Fla. R. Crim. P. 3.850. The state court rejected Tatara’s argument that the trial
court violated the prohibition against double jeopardy by continuing his
prosecution after it granted his motion for a judgment of acquittal. The state court
ruled that the trial court acquitted Tatara only of first-degree murder, that seconddegree murder was a permissive, as opposed to a necessary, lesser-included offense
on which the state could continue its prosecution, and that the trial court did not
acquit Tatara of aggravated child abuse because it had merged into the offense of
second-degree murder. The state court also rejected Tatara’s argument that using
the “dummy” indictment violated his double-jeopardy rights because the
indictment was used solely as an aid for the jury, not as a new or amended
charging document, and it accurately stated the charge against Tatara after the trial
court acquitted him of first-degree murder. The state appellate court affirmed
5
App. 5

USCA11 Case: 20-10379

Date Filed: 03/17/2021

Page: 6 of 10

summarily the denial of postconviction relief. Tatara v. State, 200 So. 3d 74 (Fla.
Dist. Ct. App. 2016).
Tatara filed a federal petition for a writ of habeas corpus in the district court.
See 28 U.S.C. § 2254. He argued that the state court ruled contrary to and
unreasonably applied Evans v. Michigan, 568 U.S. 313 (2013), by determining that
his acquittal for first-degree murder did not bar his continued prosecution. The
district court denied Tatara’s argument on the merits and then denied his
application for a certificate of appealability.
We issued a certificate of appealability to address “whether [Tatara’s]
second-degree murder conviction violated the Double Jeopardy Clause.” We
review de novo the rejection of Tatara’s argument in his petition for a writ of
habeas corpus. See Pittman v. Sec’y, Fla. Dep’t of Corr., 871 F.3d 1231, 1243
(11th Cir. 2017). Our review is circumscribed by the Antiterrorism and Effective
Death Penalty Act of 1996, which “establishes a highly deferential standard for
reviewing state court judgments.” Parker v. Sec’y for the Dep’t of Corr., 331 F.3d
764, 768 (11th Cir. 2003). Under the Act, a federal court may not grant a state
prisoner a writ of habeas corpus “with respect to any claim that was adjudicated on
the merits in State court proceedings unless the adjudication of the claim resulted
in a decision that was contrary to, or involved an unreasonable application of,

6
App. 6

USCA11 Case: 20-10379

Date Filed: 03/17/2021

Page: 7 of 10

clearly established federal law, as determined by the Supreme Court of the United
States.” 28 U.S.C. § 2254(d).
The Fifth Amendment provides that no person shall be “subject for the same
offence to be twice put in jeopardy of life or limb.” U.S. Const. amend. V. The
Double Jeopardy Clause protects a defendant against a second prosecution for the
same offense after acquittal, a second prosecution for the same offense after
conviction, and multiple punishments for the same offense in one proceeding.
Jones v. Thomas, 491 U.S. 376, 381 (1989). Tatara’s argument concerns the first of
the three protections.
Tatara argues that his continued prosecution after the trial court declared an
“acquittal” on the charge of first-degree murder violated his double-jeopardy rights
and that the decision of the state courts was contrary to and an unreasonable
application of clearly established precedents that bar retrial after an acquittal. For
the decision to fall within the “contrary to” clause of section 2254(d), the state
courts had to reach “a conclusion opposite to that reached by the Supreme Court on
a question of law” or to “decide[] a case differently than the Supreme Court has on
a set of materially indistinguishable facts.” Pittman, 871 F.3d at 1244 (quoting
Williams v. Taylor, 529 U.S. 362, 413 (2000)) (alterations adopted). To constitute
an “unreasonable application” of clearly established federal law, the state courts
must have “identifie[d] the correct governing legal principle from the Supreme
7
App. 7

USCA11 Case: 20-10379

Date Filed: 03/17/2021

Page: 8 of 10

Court’s decisions but unreasonably applie[d] that principle to the facts.” Id. at 1246
(quoting Williams, 529 U.S. at 413) (alteration adopted).
The state courts did not reach a conclusion contrary to clearly established
federal law. The decisions cited by Tatara, Evans, 568 U.S. 313, Smith v.
Massachusetts, 543 U.S. 462 (2005), and United States v. Martin Linen Supply
Co., 430 U.S. 564 (1977), involve a second prosecution for or a resumed
prosecution of an offense for which a defendant had been acquitted. Tatara
underwent a single trial in which the state convicted him of a lesser-included
charge of second-degree murder after the trial court acquitted him of first-degree
murder.
The Double Jeopardy Clause does not bar a defendant from being convicted
of a lesser-included offense in a single prosecution. See Ohio v. Johnson, 467 U.S.
493, 501 (1984) (“declin[ing] to hold” that “a determination of guilt and
punishment on one count of a multicount indictment immediately raises a double
jeopardy bar to continued prosecution on any remaining counts that are greater or
lesser included offenses of the charge just concluded”). Tatara’s trial did not have
to terminate upon being acquitted of first-degree murder because the trial court did
not “rul[e] that the prosecution’s proof [was] insufficient to establish criminal
liability for an offense.” Evans, 568 U.S. at 318. The trial court acquitted Tatara of
first-degree murder because the state could only prove that he inflicted a single
8
App. 8

USCA11 Case: 20-10379

Date Filed: 03/17/2021

Page: 9 of 10

blow to B.R.’s head and then determined that the state could continue its
prosecution based on the lesser-included offense of second-degree murder.
That determination was consistent with Florida law, which allows a jury to
consider lesser-included offenses not charged in an indictment. Florida Rule of
Criminal Procedure 3.490 provides that, “[i]f the indictment or information charges
an offense divided into degrees, the jury may find the defendant guilty of the
offense charged or any lesser degree supported by the evidence.” And in Florida,
the felony murder statute divides the offense into degrees and identifies aggravated
child abuse as a predicate offense for felony murder. See Fla. Stat. § 782.04(1)(a);
Sturdivant, 94 So. 3d at 440 (holding that a felony murder conviction can be based
on aggravated child abuse consisting of a single violent act). That the state
prepared the “dummy” information to describe the lesser-included offense did not
affect a change in the criminal proceeding. Florida Rule of Criminal Procedure
3.400(a)(1) gives the trial court discretion to provide the jury “a copy of the
charges against the defendant” during deliberations, and submission of the
“dummy” indictment to the jury aided it in resolving whether Tatara was guilty of
second-degree murder. It was not unreasonable for the state courts to conclude that
the continuation of Tatara’s trial based on the lesser-included offense of seconddegree murder did not violate his double-jeopardy rights.

9
App. 9

USCA11 Case: 20-10379

Date Filed: 03/17/2021

Page: 10 of 10

Tatara argues that the state courts erred by classifying second-degree murder
as a permissive lesser-included offense of first-degree murder, by misapplying the
doctrine of merger, and by amending his indictment in violation of state law, but
we must defer to the rulings of the state courts on those issues. “It is a fundamental
principle that state courts are the final arbiters of state law, and federal habeas
courts should not second-guess them on such matters.” Callahan, 427 F.3d at 932
(quoting Herring v. Sec’y, Dep’t of Corr., 397 F.3d 1338, 1354–55 (11th Cir.
2005)) (alterations adopted). A writ of habeas corpus may issue only to address a
violation of the laws, treaties, or Constitution of the United States, not an error of
state law. 28 U.S.C. § 2254(d); Pulley v. Harris, 465 U.S. 37, 41 (1984).
We AFFIRM the denial of Tatara’s petition for a writ of habeas corpus.

10
App. 10

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 1 of 30 PageID 2736

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION
DAVID J. TATARA,
Petitioner,
v.

Case No.: 5:17-cv-39-Oc-02PRL

SECRETARY, DEPARTMENT OF
CORRECTIONS AND ATTORNEY
GENERAL, STATE OF FLORIDA,
Respondents.
___________________________________/
ORDER
Petitioner, a Florida prisoner, instituted this action by filing a petition for writ
of habeas corpus under 28 U.S.C. § 2254 (Docs. 1, 2). At the Court’s direction,
Respondents responded to Petitioner’s petition and filed relevant portions of the state
court record. (Doc. 11). Petitioner filed a reply in support of his petition. (Doc. 12).
Thus, this matter is ripe for review.
The Court has reviewed the entire record. Because the Court may resolve the
petition on the basis of the record, an evidentiary hearing is not warranted. See Rules
Governing Section 2254 Case in the United States District Courts, Rule 8(a). Upon
consideration, the Court concludes that the petition is due to be denied.
I.

BACKGROUND

On December 17, 2008, Blake Rupe, a 15-month old child, died. The Medical
Examiner ruled the cause of death to be blunt force trauma and the manner of death

App. 11

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 2 of 30 PageID 2737

to be homicide. Law enforcement arrested Petitioner on March 4, 2009 and the State
of Florida charged him by Indictment with two counts of child abuse (counts I and II);
one count of aggravated child abuse (count III); and one count of murder in the first
degree - felony murder (count IV). Count IV of the Indictment (first-degree felony
murder) read:
the Grand Jurors, under oath, further present that the said DAVID J.
TATARA, in the County of Lake and the State of Florida, on or about
the 15th day of December in the year of Our Lord two thousand-eight, did
unlawfully, while engaged in the perpetration of a certain felony, to-wit:
Aggravated Child Abuse, kill BLAKE RUPE, a human being who at the
time was under the age of 18, by inflicting blunt trauma to his head,
thereby causing death, in violation of Section 782.04(1)(a)2, Florida
Statutes;
Count III of the Indictment (aggravated child abuse) read:
the Grand Jurors aforesaid, under oath, further present that the said
DAVID J. TATARA, in the County of Lake and the State of Florida, on
or about the 15th day of December 2008, did maliciously punish a child
named BLAKE RUPE, during which DAVID J. TATARA willfully
committed child abuse upon him by inflicting severe trauma to his head,
thereby causing BLAKE RUPE to suffer great bodily harm, in violation
of Sections 827.03(2)(b) and (c), Florida Statutes.
Prior to trial, counts I and II, the child abuse counts, were severed.
Petitioner proceeded to trial on counts III and IV. At trial, Brian Lockwood, a
paramedic, testified he arrived at the home and found Blake Rupe unconscious. In
examining the victim, he looked for outward signs of trauma but did not find anything.
Dr. Edgardo Rodriguez, a physician at Florida Waterman Hospital, testified he treated
Blake in the emergency room. A CT exam showed severe swelling of the brain and
evidence of a possible fracture or broken skull. Blake was in very critical condition and
2
App. 12

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 3 of 30 PageID 2738

in full cardiac arrest. Blake was moved to Arnold Palmer Hospital due to the level of
care he required. He later died.
Dr. Barbara Wolf, Chief Medical Examiner for the Fifth Judicial Circuit,
performed an autopsy on Blake Rupe. She testified that Blake had an external injury
on the back of his head which was an abrasion or scrape, a small laceration on the tip
of his tongue and one of his front teeth was missing. Dr. Wolf testified the autopsy
revealed Blake had a skull fracture in the bottom area of his skull, in part of the
occipital bone. Dr. Wolf noted this area was not prone to fracture. She also found
some bruising underneath the scalp on top of the skull, i.e., a subgaleal hemorrhage. 1
The autopsy revealed Blake's brain was very swollen and appeared to be bulging. She
determined the child's skull sutures were widened and concluded this was the “first
finding, or the big finding.” (Doc. 11-4 at 32-33). Dr. Wolf also found Blake had a
small subdural hematoma and bleeding on the surface of the brain, i.e., a subarachnoid
hemorrhage. Dr. Wolf also found bleeding on both sides of the optic nerve as well as
retinal hemorrhages. Based on her findings, Dr. Wolf concluded Blake Rupe died of
blunt head trauma and determined the manner of death was homicide. (Doc. 11-4 at
48). On cross-examination, Dr. Wolf admitted she could not determine whether there
was more than one blow to the child and stated “when injuries are localized in one
area, there’s no way I can tell if someone, for example, was hit in the same area once
or multiple times.” (Doc. 11-4 at 68).

The fracture was close to the external abrasion, but not directly under it. (Doc. 11-4
at 28-29).
1

3
App. 13

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 4 of 30 PageID 2739

Towards the end of the State’s case in chief, defense counsel moved for a
judgment of acquittal and to dismiss. Citing Brooks v. State, 918 So. 2d 181 (Fla. 2005)
and Sturdivant v. State, 94 So. 3d 434 (Fla. 2012), counsel argued the “merger doctrine”
did not allow the Defendant to be found guilty of first-degree murder because you must
have two or more blows or multiple acts of child abuse. Counsel argued the evidence
in this case did not establish there was more than one blow to the child. The court took
the motions under advisement and reserved ruling.
During the trial, the State and Defense discussed jury instructions. The trial
court stated: “[H]ere’s my thoughts. I read them [Brooks and Sturdivant] pretty
carefully, and, in my opinion, if the Supreme Court doesn't reverse themselves, I think
we can’t go with the felony murder.” (Doc. 11-8 at 52). After further discussion, the
trial court stated: “Unless there’s a change in the law, you know, before we give it to
the jury, you know, I'm inclined to grant the JOA on that.” (Doc. 11-8 at 54).
After the close of evidence, defense counsel renewed his motion for judgment
of acquittal. Citing Brooks, defense counsel argued the evidence did not support a
finding that there was more than one blow and, therefore, the charge of felony murder
could not stand. The trial court ruled: “At this time I'm going to grant the Motion for
Judgment of Acquittal on the first degree murder. The jury will be able to consider
second degree murder and child abuse.” After further discussion, the court determined
that second degree murder and the aggravated child abuse charges merged. The court
stated:

4
App. 14

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 5 of 30 PageID 2740

Here are my plans. I am going to instruct the jury ,that I have ruled that
as a matter of law that they will not be considering first degree felony
murder or aggravated child abuse, and that they should disregard any
instructions or the reading of the indictment as to first degree felony
murder and aggravated child abuse, and that they will only be able to
consider second degree murder and the lessers of second degree murder.
(Doc. 11-9 at 82).
Before the case was submitted to the jury, the State filed a "dummy" information
charging the Petitioner with one count of second-degree murder. Defense counsel
objected and argued it was inappropriate and a sham. The trial court decided to send
the "dummy" information back with the jury. (Doc. 11-10 at 60-62).
The jury found the Petitioner guilty of murder in the second degree. (Doc. 11-1
at 50). The court entered a judgment of not guilty as to count III - aggravated child
abuse. The State entered an announcement of nolle prosequi as to counts I and II. The
Court sentenced Petitioner to a term of natural life. (Doc. 11-1 at 56-59).
Petitioner appealed his judgment and sentence. Petitioner raised six grounds:
(1) the trial court violated Petitioner’s due process rights and procedural rules by
allowing the State to file an Information and attempt to amend the indictment after
the close of evidence; (2) the trial court reversibly erred in permitting Linda Pedicone
to testify as an expert in child abuse; (3) the trial court improperly admitted evidence
of victim’s previous injuries; (4) the trial court reversibly erred in admitting evidence
of prior bad acts; (5) the trial court reversibly erred in admitting Kathryn Tillman’s
testimony regarding a statement allegedly made by Petitioner; and (6) the trial court
reversibly erred in denying Petitioner review of Department of Children and Families
5
App. 15

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 6 of 30 PageID 2741

records. (Doc. 11-10 at 96-152). The State filed an Answer Brief. (Docs. 11-10 at 15472, 11-11 at 1-19). Petitioner filed a Reply Brief. (Doc. 11-1 at 21-36).
On February 15, 2013, Petitioner filed an unopposed motion to file
supplemental brief, to exceed 50-page limit and to continue oral argument (Doc. 1111 at 38-41) and a Supplemental Brief (Doc. 11-11 at 42-48). The Supplemental Brief
contained one new ground: the trial court committed fundamental error by instructing
the jury on the uncharged offense of second degree murder. The State filed a
Supplemental Answer Brief. (Doc. 11-11 at 50-62). Petitioner filed a Supplemental
Reply Brief. (Doc. 11-11 at 64-70).
On April 19, 2013, Petitioner’s Joint Motion for Substitution of Counsel was
granted. (Doc. 11-11 at 72-74). Petitioner’s new counsel then filed a Motion for Leave
to file Amended Initial Brief (Doc. 11-11 at 123-33) and an Amended Initial Brief
(Doc. 11-11 at 76-121). The Amended Brief raised two grounds: (1) because the court
granted Petitioner’s motion for judgment of acquittal, any further proceedings on this
indictment violated double jeopardy; and (2) the conviction violated Petitioner’s due
process rights because he was never charged with second degree murder. The Fifth
District Court of Appeal (“Fifth DCA”) denied the motion and struck the Amended
Initial Brief. (Doc. 11-11 at 135).
Oral argument was held, see Doc. 11-11 at 157-82, and the Fifth DCA per curiam
affirmed. (Doc. 11-11 at 137); Tatara v. State, 119 So.3d 1265 (Fla. 5th DCA 2013)
(Table). Petitioner, through counsel, filed a motion for rehearing and motion for

6
App. 16

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 7 of 30 PageID 2742

written opinion (Doc. 11-11 at 139-82). The motion was denied on September 4, 2013,
(Doc. 11-11 at 184) and Mandate issued on September 19, 2013 (Doc. 11-11 at 186).
On March 10, 2014, Petitioner, through counsel, filed a verified motion for
postconviction relief pursuant to Rule 3.850, Florida Rules of Criminal Procedure.
(Docs. 11-11 at 207-22; 11-12 at 1-58; 11-13 at 1-72). Petitioner raised four grounds:
(1) counsel was ineffective for failing to object to the charge of second degree murder
being submitted to the jury; (2) the conviction for second degree murder is void because
it violates double jeopardy; (3) the conviction for second degree murder is void because
it was entered in violation of the due process clause; and (4) he was entitled to
discharge due to those errors. Id. The State responded in opposition. (Docs. 11-13 at
74-82; 11-14 at 1-76; 11-15 at 1-76; 11-16 at 1-68; 11-17 at 1-43; 11-18 at 1-37).
Petitioner, through counsel, filed a reply in support of postconviction relief (Doc. 1118 at 39-46). The court held an evidentiary hearing. (Doc. 11-20 at 68-101; 11-21 at 151). Following the hearing, Petitioner, through counsel, filed his argument after
evidentiary hearing, (Docs. 11-19 at 21-79; Doc. 11-20 at 1-66), and the State filed a
memorandum of law regarding Defendant’s motion for postconviction relief (Docs.
11-18 at 48-54; 11-19 at 1-19). The state court denied the motion. (Doc. 11-21 at 5369). Petitioner, through counsel, filed a motion for rehearing. (Doc. 11-21 at 71-79).
The state court denied the motion. (Doc. 11-22 at 1-2). Petitioner appealed, (Doc. 1122 at 4-52), the State filed an answer brief, (Doc. 11-22 at 54-78), and Petitioner filed
a reply brief (Doc. 11-22 at 80-89). The Fifth DCA per curiam affirmed. (Doc. 11-22 at

7
App. 17

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 8 of 30 PageID 2743

91); Tatara v. State, 200 So. 3d 74 (Fla. 5th DCA 2016) (Table). Mandate issued on
October 10, 2016. (Doc. 11-22 at 93).
While the Rule 3.850 motion was pending, Petitioner, through counsel, filed in
the Fifth DCA a petition for writ of habeas corpus alleging ineffective assistance of
appellate counsel and/or petition for writ of habeas corpus to correct manifest injustice
on July 31, 2014. (Doc. 11-22 at 95-229). The petition was denied. (Doc. 11-22 at 231).
Petitioner filed a pro se motion for rehearing and in the alternative a request for written
opinion. (Doc. 11-22 at 233-42). The motion was denied. (Doc. 11-22 at 244).
Also, while the Rule 3.850 motion was pending, Petitioner filed a pro se petition
to invoke all writs jurisdiction on January 30, 2015. (Doc. 11-22 at 246-328). The Fifth
DCA ordered the State to respond. (Doc. 11-22 at 330). The state moved to dismiss
the petition. (Doc. 11-22 at 332-34). Petitioner replied. (Doc. 11-22 at 336-42). The
petition was denied, and the motion to dismiss was denied as moot. (Doc. 11-22 at
344, 346).
II.

LEGAL STANDARDS

A.
Standard of Review Under the Antiterrorism Effective Death Penalty
Act (“AEDPA”)
Under the AEDPA, federal habeas relief may not be granted on a claim
adjudicated on the merits in state court unless the adjudication of the claim:
(1)

resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
States; or

8
App. 18

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 9 of 30 PageID 2744

(2)

resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented
in the State court proceeding.

28 U.S.C. § 2254(d). The phrase “clearly established Federal law,” encompasses only
the holdings of the United States Supreme Court “as of the time of the relevant statecourt decision.” Williams v. Taylor, 529 U.S. 362, 412 (2000).
“[S]ection 2254(d)(1) provides two separate bases for reviewing state court
decisions; the ‘contrary to’ and ‘unreasonable application’ clauses articulate
independent considerations a federal court must consider.” Maharaj v. Sec’y for Dep’t of
Corr., 432 F.3d 1292, 1308 (11th Cir. 2005). The meaning of the clauses was discussed
by the Eleventh Circuit in Parker v. Head, 244 F.3d 831, 835 (11th Cir. 2001):
Under the “contrary to” clause, a federal court may grant the writ if
the state court arrives at a conclusion opposite to that reached by [the
United States Supreme Court] on a question of law or if the state court
decides a case differently than [the United States Supreme Court] has
on a set of materially indistinguishable facts. Under the ‘unreasonable
application’ clause, a federal habeas court may grant the writ if the
state court identifies the correct governing legal principle from [the
United States Supreme Court’s] decisions but unreasonably applies
that principle to the facts of the prisoner’s case.
Even if the federal court finds that the state court applied federal law incorrectly,
habeas relief is appropriate only if that application was “objectively unreasonable.”2

In considering the “unreasonable application” inquiry, the Court must determine
“whether the state court's application of clearly established federal law was objectively
unreasonable.” Williams, 529 U.S. at 409. Whether a state court's decision was an
unreasonable application of law must be assessed in light of the record before the state court.
Holland v. Jackson, 542 U.S. 649, 652 (2004) (per curiam); cf. Bell v. Cone, 535 U.S. 685, 697 n.
4 (2002) (declining to consider evidence not presented to state court in determining whether
its decision was contrary to federal law).
2

9
App. 19

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 10 of 30 PageID 2745

Id. Finally, under § 2254(d)(2), a federal court may grant a writ of habeas corpus if the
state court’s decision “was based on an unreasonable determination of the facts in light
of the evidence presented in the State court proceeding.” A determination of a factual
issue made by a state court, however, shall be presumed correct, and the habeas
petitioner shall have to rebut the presumption of correctness by clear and convincing
evidence. See Parker, 244 F.3d at 835-36; 28 U.S.C. § 2254(e)(1).
B.

Standard for Ineffective Assistance of Counsel

In Strickland v. Washington, the Supreme Court established a two-part test for
determining whether a convicted person may have relief because his counsel rendered
ineffective assistance. 466 U.S. 668, 687-88 (1984). A petitioner must establish that
counsel’s performance was deficient and fell below an objective standard of
reasonableness and that the deficient performance prejudiced the defense. Id. This is a
“doubly deferential” standard of review that gives both the state court and the
petitioner’s attorney the benefit of the doubt. Burt, 134 S. Ct. at 13 (citing Cullen v.
Pinholster, 131 S. Ct. 1388, 1403 (2011)).
The focus of inquiry under Strickland’s performance prong is “reasonableness
under prevailing professional norms.” Strickland, 466 U.S. at 688-89. In reviewing
counsel’s performance, a court must adhere to a strong presumption that “counsel’s
conduct falls within the wide range of reasonable professional assistance.” Id. at 689.
The petitioner must “prove, by a preponderance of the evidence, that counsel’s
performance was unreasonable[.]” Jones v. Campbell, 436 F.3d 1285, 1293 (11th Cir.

10
App. 20

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 11 of 30 PageID 2746

2006). A court must “judge the reasonableness of counsel’s conduct on the facts of the
particular case, viewed as of the time of counsel’s conduct,” applying a “highly
deferential” level of judicial scrutiny. Roe v. Flores-Ortega, 528 U.S. 470, 477 (2000)
(quoting Strickland, 466 U.S. at 690).
Petitioner’s burden to show Strickland prejudice is also high. Wellington v. Moore,
314 F.3d 1256, 1260 (11th Cir. 2002). Prejudice “requires showing that counsel’s errors
were so serious as to deprive the defendant of a fair trial, a trial whose result is reliable.”
Strickland, 466 U.S. at 687. That is, “[t]he defendant must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Id. at 694. A reasonable probability is “a
probability sufficient to undermine confidence in the outcome.” Strickland, 466 U.S. at
694.
III.
A.

ANALYSIS

Ground Three3

Petitioner challenges the state court’s denial of his Rule 3.850 claim alleging
ineffective assistance of counsel. (Doc. 2 at 21-27). Petitioner claims that counsel failed
to object to the submission of the second-degree murder charge to the jury. (Id.).
Petitioner states that second-degree murder was not a necessary lesser included offense
of first-degree felony murder, nor was it a permissive lesser included offense of first-

For ease of review the claims in the Petition are being addressed in the order that they
were presented in Petitioner’s Rule 3.850 motion, as opposed to this instant Petition, because
the state court’s order denying that motion makes multiple internal references to its prior
findings.
3

11
App. 21

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 12 of 30 PageID 2747

degree felony murder under the Indictment. Petitioner claims if his trial counsel
objected, he would have either been acquitted outright, or could have the charge of
manslaughter, the only remaining lesser included offense, submitted to the jury.
Further, Petitioner states that the lack of an objection subjected his argument that he
was convicted of a crime he was not properly charged of to the heightened standard of
fundamental error.
Petitioner raised this ground in his Rule 3.850 motion. (Doc. 11-11 at 216-22;
Doc. 11-12 at 1-3). The state court denied the claim:
In his first issue, Defendant argues trial counsel was ineffective for
failing to object to the charge of second-degree murder being submitted
to the jury. During the course of the direct appeal, defense counsel
admitted he was unaware of the holding in Coicou v. State, 39 So. 3d 237,
243 (Fla. 2010) in which the Florida Supreme Court held that seconddegree murder was no longer a necessarily lesser included offense of firstdegree felony murder. Citing the Coicou decision, Defendant asserts
counsel had a duty to object because: (1) second-degree murder is not a
necessary lesser-included offense of first-degree felony murder; and (2)
the Indictment in this case does not sufficiently allege the element of a
depraved mind to allow the jury to consider the charge as a permissive
lesser included offense of second-degree murder. In considering whether
count IV sufficiently alleges depraved mind element of second-degree
murder, Defendant maintains only the language of count IV may be
considered and concludes the State did not charge the crime of first­
degree felony murder (count IV) in a manner encompassing a depraved
mind.
Defendant further maintains that the State's filing of the
Information after the close of all the evidence further illustrates that the
mens rea for second-degree murder was not alleged in the original
Indictment. A comparison of the language contained in the original
Indictment and the subsequent Information reveals the Information
contained an additional mens rea element. He argues defense counsel's
failure to object to this charge being submitted to the jury was not merely
a matter of trial strategy.
Defendant further argues defense counsel's failure to object to the
second-degree murder charge being submitted to the jury prejudiced his
12
App. 22

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 13 of 30 PageID 2748

case both at the trial level and the appellate level. Defendant argues he
was prejudiced by counsel's failure because there was a reasonable
probability that if counsel had objected, the trial court would have found
it inappropriate to submit the matter to the jury, thereby altering the
outcome of the case. He maintains he would have been acquitted outright
or the trial court would have submitted the lesser-included offense of
manslaughter to the jury. Defendant also notes that counsel's failure to
object to the submission of the charge was fatal to this issue on appeal.
The Defendant is correct, second-degree murder is not a
necessarily included offense of first-degree felony murder. This Court,
however, disagrees with the Defendant that second-degree murder is not
a permissive lesser included offense under the facts of this case. Initially,
this Court notes one of the purposes of an indictment or information "...
is to fairly apprise the defendant of the offense with which he is charged."
Leeman v. State, 357 So. 2d 703, 705 (Fla. 1978). As noted above, the
Indictment charging the Defendant with first-degree felony murder stated
that the Defendant: "did unlawfully, while engaged in the perpetration of
a certain felony, to-wit: Aggravated Child Abuse, kill BLAKE RUPE."
Thus, the indictment for count IV specifically incorporates the charge of
aggravated child abuse into the count.
Aggravated child abuse is defined as occurring when a person: (1)
commits aggravated battery on a child; (2) willfully tortures, maliciously
punishes, or willfully and unlawfully cages a child; or (3) knowingly or
willfully abuses a child and in so doing causes great bodily harm,
permanent disability, or permanent disfigurement to the child. Section
827.03(l)(a), Florida Statutes (2007). The aggravated child abuse charge
(count III) alleges the Defendant maliciously punished Blake Rupe which
resulted in inflicting severe trauma to the child's head. Section 827.03(c)
defines maliciously as "wrongfully, intentionally, and without legal
excuse." Florida courts have equated depravity of mind required for
second-degree murder with malice in the commonly understood sense of
"ill will, hatred, spite, or evil intent." Ramsey v. State, 114 Fla. 766, 154
So. 855, 856 (1934); Turner v. State, 298 So. 2d 559, 560 (Fla. 3d DCA
1974); Aquilera v. State, 975 So. 2d 1270, 1273 (Fla. 3d DCA 2008);
Manuel v. State, 344 So. 2d 1317, 1319 (Fla. 2d DCA 1977). The
incorporation of the aggravated child abuse charge (count III) into the
charge of felony murder (count IV) put the Defendant on notice he might
have to defend against the permissive lesser included charge of seconddegree murder. By utilizing the wording alleging the Defendant
maliciously (intentionally, wrongfully and without legal excuse)
punished Blake Rupe by inflicting severe trauma to his head, the
Indictment sufficiently alleged the Defendant acted with ill will, hatred,
spite or evil intent.
13
App. 23

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 14 of 30 PageID 2749

As an aside, this Court finds the evidence, particularly the
testimony at the evidentiary hearing, demonstrates trial counsel was on
notice he might have to defend against the lesser-included offense of
second-degree murder. Trial counsel admitted he was unaware of the
Florida Supreme Court's decision in Coicou. (EH at 31). Thus, it was his
understanding, second-degree murder, depraved mind, was a necessarily
included offense of felony murder. Trial counsel testified:
Well, it is my understanding, and always has been, that if
the court finds the evidence insufficient to sustain the
verdict on the charged offense, then any necessarily
included - - lesser- - included offenses, the court can instruct
the jury on.
(EH at 25). He went on to state that after the judgment of acquittal was
entered as to the felony murder charge, the court could instruct on any
necessarily included offenses. The testimony continued:
Q. At that point in this case, what do you believe the
necessarily included lesser offenses were back then, not
now?
A. Well, I would imagine that I relied on the same source
or resource that the judge had and that is the schedule of
lesser-included offenses which at that time erroneously
listed second-degree including depraved mind as a
necessarily lesser-included offense.
(EH at 26). Thus, it is clear trial counsel, albeit erroneously, was on notice
he might have to defend against a charge of second-degree murder,
depraved mind. To the extent Defendant is arguing trial counsel was not
on notice he might have to defend against a charge of second-degree
murder, depraved mind, such argument must fail.
This Court is cognizant of the Fifth District Court of Appeal's
decision in Wilson v. State, 749 So. 2d 516 (Fla. 5th DCA 1999). In that
case, the appellate court relied on Cave v. State, 613 So. 2d 454 (Fla. 1993),
in reaching its holding that a crime is not a lesser included offense unless
the allegations contained in the count of the information charging the
major crime alleges all of the elements necessary to prove the lesser
included offense. The Fifth District Court of Appeal affirmed the trial
court finding there were insufficient allegations in the particular count to
authorize an instruction on the lesser included offense. Wilson, 749 So.
2d at 519. This Court finds Wilson is distinguishable. In this instance,
count IV incorporates the charge of aggravated child abuse, i.e., count
III. Because it incorporates the charge of aggravated child abuse in count
IV, the elements for the crime of aggravated child abuse are part of count
IV. As noted above, count III of the indictment alleges Defendant
"maliciously punished" Blake Rupe. This is sufficient to establish the
14
App. 24

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 15 of 30 PageID 2750

mens rea of a depraved mind. Thus, this Court concludes that under the
circumstances of this case, second-degree murder is a permissive lesser
included offense of count IV. Therefore, Counsel was not deficient for
failing to object to the charge being submitted to the jury.
(Doc. 11-21 at 61-65). Petitioner moved for rehearing arguing that the Court erred in
finding second degree murder was a permissive lesser included offense by erroneously
equating maliciously to depraved of mind. (Doc. 11-21 at 71-79). The state court
denied the motion:
The Defendant argues this Court erred in finding second degree
murder was a permissive lesser included offense under the facts of this
case. In addressing the Defendant’s claims, this Court noted one of the
purposes of an indictment or information is to fairly apprise the
Defendant of the offense with which he is charged. Leeman v. State, 357
So. 2d 703, 705 (Fla. 1978). This Court found that the Indictment for
Count IV specifically incorporated the charge of aggravated child
abuse into the count. In examining the issue, this Court found the
incorporation of the aggravated child abuse charge (Count III) into
the charge of felony murder (Count IV) put the Defendant on notice
he might have to defend against the permissive lesser included charge
of second degree murder. By utilizing the wording alleging the
Defendant maliciously (i.e., intentionally, wrongfully and without
legal excuse) punished Blake Rupe by inflicting severe trauma to his
head, the Indictment sufficiently alleged the Defendant acted with ill
will, hatred, spite, or evil intent. This Court concluded that under the
circumstances of this case, second degree murder is a permissive
lesser included offense of count IV and, therefore, counsel was not
deficient for failing to object to the charge being submitted to the jury.
This Court affirms its original Order Denying the Defendant's
Verified Motion for Post-Conviction Relief.
(Doc. 11-22 at 1-2). Petitioner appealed. (Doc. 11-22 at 28-33). The State filed an
Answer Brief in opposition. (Doc. 11-22 at 54-78). Petitioner filed a Reply Brief. (Doc.
11-22 at 80-89). The Fifth DCA per curiam affirmed. (Doc. 11-22 at 91). Mandate
issued on October 10, 2016. (Doc. 11-22 at 93).
15
App. 25

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 16 of 30 PageID 2751

In Florida, a trial court is required to instruct the jury on all necessary lesser
included offenses. State v. Montgomery, 39 So. 3d 252, 259 (Fla. 2010). An offense is a
necessary lesser included offense if the elements of the lesser offense are subsumed
within the elements of the charged offense. Sanders v. State, 944 So. 2d 203 (Fla. 2006).
In Coicou v. State, 39 So. 3d 237, 243 (Fla. 2010), the Florida Supreme Court held that
second-degree murder is not a necessarily lesser included offense of first-degree felony
murder. Permissive lesser-included offenses are those that may or may not be lesser
included offenses depending on the pleadings and the evidence presented. Wilcott v.
State, 509 So. 2d 261, 262 (Fla. 1987). An instruction on a permissive lesser included
offense is precluded only where “there is a total lack of evidence of the lesser offense.”
In re Use by Trial Courts of Standard Jury Instructions, 431 So. 2d 594, 597 (Fla.), modified,
431 So. 2d 599 (Fla. 1981); Amado v. State, 585 So. 2d 282, 282–83 (Fla. 1991).
Florida Rule of Criminal Procedure 3.510 provides in pertinent part that the
jury may convict the defendant of any offense that as a matter of law is a lesser included
offense of the offense charged in the Indictment or Information and is supported by
the evidence. Thus, a permissive lesser included offense exists, and therefore may be
instructed if the evidence supports it, when ‘the two offenses appear to be separate [on
the face of the statutes], but the facts as alleged in the accusatory pleadings are such
that the lesser [included] offense cannot help but be perpetrated once the greater
offense has been.” Sanders, 944 So. 2d at 206. Even where the defense objects to the
instruction of a lesser included offense on the grounds that it is not listed on the
schedule of lesser included offenses, if the offense meets the requirements of a
16
App. 26

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 17 of 30 PageID 2752

permissive lesser included offense, the Florida Supreme Court has held that the
instruction is proper and the State may have the instruction. Williams v. State, 957 So.
2d 595 (Fla. 2007). “Although the schedule ‘is presumptively correct and complete,’
... ‘trial courts are charged with the responsibility to determine and properly instruct
the jury on the prevailing law.’” Id. at 599–600 (citations omitted). The state district
courts have reached the same holding. In Ewing v. State, 56 So. 3d 67 (Fla. 2d DCA
2011), the trial court had refused to instruct on a lesser offense because it was not listed
as a lesser-included offense to the standard jury instruction. In reversing, the appellate
court explained that the Florida Supreme Court has made clear that the published
standard jury instructions are authorized but do not foreclose the parties from
requesting additional instructions. Id. at 68–69. In Benjamin v. State, 462 So. 2d 110
(Fla. 5th DCA 1985), the court also held that an instruction on an offense as a category
2 lesser included offense may be proper even if it is not listed if the Information alleges
the essential elements of the crime and the evidence adduced at trial supports the
offense. Id. at 112.
Thus, under Florida law, even if the lesser offense is not listed in the schedule
of lesser included offenses, an instruction for a lesser included offense is appropriate if
the allegations of the greater offense contain all the elements of the lesser offense and
the evidence at trial would support the lesser offense. See Williams, 957 So. 2d at 599600; Khianthalat v. State, 974 So. 2d 359, 361 (Fla. 2008). Here, second-degree murder
is a category two (permissive) lesser included offense of first-degree murder. See Fla.
Std. Jury Instr. (Crim.) 7.3.
17
App. 27

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 18 of 30 PageID 2753

To the extent that the Fifth DCA affirmed the trial court’s denial on the merits,4
the Court will address the claim in accordance with the deferential standard for federal
court review of state court adjudications. In so far as Petitioner takes issue with the
reading of the second-degree murder generally, “[u]nlike state appellate courts, federal
courts on habeas review are constrained to determine only whether the challenged
instruction, viewed in the context of both the entire charge and the trial record, ‘so
infected the entire trial that the resulting conviction violate[d] due process.’” Jamerson
v. Sec’y for Dep’t of Corr., 410 F.3d 682, 688 (11th Cir. 2005) (quoting Estelle v. McGuire,
502 U.S. 62, 72 (1991)). “If there is no basis in the record for the instruction given,
such error may raise to a ‘substantial and ineradicable doubt as to whether the jury
was properly guided in its deliberations,’ and reversal may be required.” Pesaplastic,
C.A. v. Cincinnati Milacron Co., 750 F.2d 1516, 1525 (11th Cir. 1985) (quoting McElroy
v. Firestone Tire & Rubber Co., 894 F.2d 1504, 1509 (11th Cir. 1990)).
In light of the state court’s conclusion that an objection would not have been
properly granted under state law, a conclusion to which this federal court must defer,
Petitioner failed to show counsel performed deficiently by failing to object to the

Where the state court’s adjudication on the merits is unaccompanied by an
explanation, the federal court should “look through” the unexplained decision to the last
related state-court decision that does provide a relevant rationale. It should then presume that
the unexplained decision adopted the same reasoning. But the State may rebut the
presumption by showing that the unexplained affirmance relied or most likely did rely on
different grounds than the lower state court’s decision, such as alternative grounds for
affirmance that were briefed or argued to the state supreme court or obvious in the record it
reviewed. Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018).
4

18
App. 28

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 19 of 30 PageID 2754

charge of second-degree murder being submitted to the jury. See Erwin v. Sec’y, Dep’t of
Corr., 2013 WL 790983, at *34 (N.D. Fla. Feb. 12, 2013), report and recommendation
adopted, 2013 WL 790942 (N.D. Fla. Mar. 4, 2013), aff’d 568 F. App’x 749 (11th Cir
2014). Here, the postconviction court found the facts alleged in the Indictment and the
evidence presented at trial demonstrated that second degree murder was a proper lesser
included offense under Florida law. Accordingly, Ground Three warrants no federal
habeas corpus relief. See 28 U.S.C. § 2254(d)(1), (2).
B.

Ground One

Petitioner states that his conviction for second-degree murder violates the
prohibition against double jeopardy. (Doc. 2 at 13-19). Petitioner claims that the
proceedings against him should have concluded the moment the trial court entered a
judgment of acquittal. Further, Petitioner avers that once the state filed a new
information it had the legal effect of a nolle prosequi of the original information and
triggered double jeopardy. Petitioner states that the moment the state court acquitted
him of the offenses charged in the Indictment, it should have freed him and prohibited
him from being put in jeopardy by another prosecution of the same offense under a
new Information.
Petitioner raised this ground in his Rule 3.850 motion. (Doc. 11-12 at 3-11). The
state court denied this claim:
In issue II, the Defendant argues that his conviction for seconddegree murder is void because it violates the proscription against double
jeopardy in two respects: (1) he was acquitted of the charges set forth in
the original indictment, but the proceedings against him were not
immediately concluded; and (2) after the court granted the judgment of
19
App. 29

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 20 of 30 PageID 2755

acquittal, the State filed an information charging him with the separate
and new offense of second-degree murder. Crucial to Defendant's
contention is his argument that the trial court acquitted him of both the
first-degree felony murder and the aggravated child abuse charge. Based
on this reasoning, he contends that any further proceedings violated
double jeopardy.
As stated above, Defendant contends he was acquitted of the
charges in the original indictment and the proceedings against him
should have concluded the very moment the trial court entered a
judgment of acquittal and he should have been discharged. Defendant
concedes the trial court entered a judgment of acquittal on the felony
murder charge based on what is no longer a correct interpretation of the
law - that the State was required to prove multiple acts to defeat the
merger doctrine. Similarly, the trial court found the State could not prove
aggravated child abuse because the State could only prove one act and
thus it merged into second-degree murder. Defendant argues the trial
court's ruling and subsequent instructions to the jury on the charge of
second-degree murder effectively acquitted him of aggravated child abuse
as well. Defendant contends that under the double-jeopardy clause, his
acquittal of first-degree felony murder and his acquittal of aggravated
child abuse demanded immediate cessation of all the proceedings. He
argues that under the holding of Mars v. Mounts, 895 F.2d 1348 (11th Cir.
1990), he could not be recharged under the new theory of second-degree
murder after he had been acquitted of first-degree felony murder and
aggravated child abuse because the second-degree murder charge alleged
the same murder of the same victim on the same date.
After Defendant was granted the judgment of acquittal, the State
filed an Information charging him with second-degree murder. He argues
this was a separate and new offense and included for the first time the
element of a depraved mind. Defendant contends that the filing of the
Information after the close of all evidence was a substantive amendment
of the charging document. Relying on State v. Thomas, 714 So. 2d 626
(Fla. 5th DCA 1998), Defendant argues such a substantive amendment
of a charging document after the jury was sworn was a violation of double
jeopardy. Defendant maintains that the situation is even more egregious
because the Information was entered after the State had presented its
evidence and the defense had closed its case-in-chief. He asserts that,
during trial, he had no idea he was defending himself against the
depraved mind element. Defendant contends the charge of second-degree
murder afforded the State with an impermissible opportunity to try him
a second time on the same offense after he had been acquitted on the
felony murder charge.
20
App. 30

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 21 of 30 PageID 2756

The Defendant's contention that he was acquitted of both charges
is incorrect. This Court found the State could only prove one blow and,
therefore, acquitted him of the first-degree felony murder charge. As this
Court discussed above, it finds the State adequately pled counts IV and
III to put the Defendant on notice that he may have to defend on the
charge of second-degree murder. Thus, it properly considered the
permissive lesser included offense of second-degree murder. Florida Rule
of Criminal Procedure 3.490 provides:
If the indictment or information charges an offense divided
into degrees, the jury may find the defendant guilty of the
offense charged or any lesser degrees supported by the
evidence.
Florida Rule of Criminal Procedure 3.510 provides:
On an indictment or information on which the defendant is
to be tried for any offense the jury may convict the
defendant of:
*****
(b) any offense that as a matter of law is a necessarily
included offense or a lesser included offense of the offense
charged in the indictment or information and is supported
by the evidence. The judge shall not instruct on any lesser
included offense as to which there is no evidence.
This Court did not acquit the Defendant of aggravated child abuse but
merged that count with the second-degree murder charge. Merger and
acquittal are not the same.
Contrary to the Defendant's assertion, the State did not file a new
and separate offense when it prepared the "dummy” Information. At the
evidentiary hearing, Mr. Gross testified that he prepared the Information
so the jury could consider it when they went to deliberate. He stated the
"dummy" Information was meant to be an aid for the jury and they
always sent an information or indictment back with the jury when they
deliberated. Florida Rule of Criminal Procedure 3.400(a)(1) specifically
allows the trial court to take to the jury room a copy of the charges against
the Defendant. The Information was not a substantive amendment but
simply a statement of the charge against the Defendant. Thus, this issue
is DENIED.
(Doc. 11-21 at 65-67). Petitioner appealed. (Doc. 11-22 at 34-45). The State filed an
Answer Brief in opposition. (Doc. 11-22 at 54-78). Petitioner filed a Reply Brief. (Doc.

21
App. 31

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 22 of 30 PageID 2757

11-22 at 80-89). The Fifth DCA per curiam affirmed. (Doc. 11-22 at 91). Mandate
issued on October 10, 2016. (Doc. 11-22 at 93).
The Fifth Amendment guarantees that no person shall “be subject for the same
offense to be twice put in jeopardy of life or limb ....” U.S. Const. amend. V. 5 The
courts have applied double jeopardy protection in three broad categories of cases: (1)
successive prosecution for the same offense after acquittal; (2) successive prosecution
for the same offense after conviction; and (3) multiple punishments for the same
offense. North Carolina v. Pearce, 395 U.S. 711, 717 (1969). However, the Double
Jeopardy Clause protects defendants against successive prosecutions, not simultaneous
ones. United States v. Farmer, 923 F.2d 1557, 1563 (11th Cir. 1991). An “acquittal” is a
decision by a court or a jury in favor of the defendant that “‘actually represents a
resolution, correct or not, of some or all of the factual elements of the offense
charged.’” Smith v. Massachusetts, 543 U.S. 462, 468 (2005) (quoting United States v.
Martin Linen Supply Co., 430 U.S. 564, 571 (1977)).
The trial court explained his ruling on Petitioner’s motion for judgment of
acquittal and the subsequent instructions regarding second degree murder:
At this time I’m going to grant the Motion for Judgment of Acquittal on
the first degree felony murder. The jury will be able to consider second
degree murder and child abuse.
(Doc. 11-9 at 80).

The Double Jeopardy Clause of the Fifth Amendment applies to the State through
the Due Process Clause of the Fourteenth Amendment. Benton v. Maryland, 395 U.S. 784
(1969).
5

22
App. 32

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 23 of 30 PageID 2758

As far as that goes, do you want me to instruct the jury that the Court has
determined as a matter of law they’re only going to be able to consider
second degree murder and any lesser included offenses of second degree
murder?
(Doc. 11-9 at 81).
Here are my plans. I am going to instruct the jury that I have ruled that
as a matter of law that they will not be considering first degree felony
murder or aggravated child abuse, and they should disregard any
instructions or the reading of the indictment as to first degree felony
murder and aggravated child abuse, and that they will only be able to
consider second degree murder and the lessers of second degree murder.
(Doc. 11-9 at 82).
Petitioner argues that the state court’s rejection of his double jeopardy claim is
contrary to and an unreasonable application of the Supreme Court’s decision in Evans
v. Michigan, 568 U.S. 313 (2013). He claims Evans clearly establishes that “an
‘acquittal’ includes ‘a ruling by the court that the evidence is insufficient to convict,’ a
‘factual finding [that] necessarily establish[es] the criminal defendant’s lack of criminal
culpability,’ and any other ‘rulin[g] which relates to the ultimate question of guilt or
innocence.’” Id. at 319 (quoting United States v. Scott, 437 U.S. 82, 91, 98 and n. 11
(1978)). However, Petitioner’s reliance on Evans is misplaced. The Supreme Court
found that a defendant’s retrial following an acquittal (even if an erroneous acquittal)
is barred by double jeopardy. Evans, 568 U.S. at 324. The trial court acquitted
Petitioner of first degree felony murder and aggravated child abuse, but not second
degree murder.
The state court’s findings and conclusions regarding this claim were reasonable,
in accord with, and not contrary to clearly established Federal law, as determined by
23
App. 33

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 24 of 30 PageID 2759

the Supreme Court of the United States; and were also reasonable, not unreasonable,
in light of the evidence presented in the state court proceeding. See 28 U.S.C. §
2254(d)(1)-(2).
C.

Ground Two

Petitioner states that his conviction for second degree murder is void because
the state court deprived him of due process. (Doc. 2 at 19-21). He claims that it was a
violation of his right to due process to charge him a new offense, containing a new
element, in a new Information that was filed after the close of evidence, without giving
him an opportunity to offer evidence in opposition to the charge.
Petitioner first raised this claim on direct appeal. (Doc. 11-10 at 116-24). The
State filed an Answer Brief in opposition. (Doc. 11-10 at 170-72; Doc. 11-11 at 1-2).
Petitioner then filed Reply Brief. (Doc. 11-11 at 22-26). Oral arguments were held.
(Doc. 11-11 at 157-82). The Fifth DCA per curiam affirmed. (Doc. 11-11 at 137).
Petitioner filed a motion for rehearing and motion for written opinion. (Doc. 11-11 at
139-82). The motions were denied. (Doc. 11-11 at 184). Petitioner then raised this issue
in his Rule 3.850 motion. (Doc. 11-12 at 11-15). The State responded in opposition.
(Doc. 11-13 at 74-82; Doc. 11-14 at 1-4). Petitioner replied. (Doc. 11-18 at 39-46). An
evidentiary hearing was held. (Doc. 11-20 at 68-101; Doc. 11-21 at 1-51). The State
(Doc. 11-18 at 48-54; Doc. 11-19 at 1-19) and Petitioner (Doc. 11-19 at 21-79; Doc.
11-20 at 1-66) filed written arguments after the hearing. The state court denied this
claim:

24
App. 34

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 25 of 30 PageID 2760

In issue III, the Defendant argues his conviction for second-degree
murder is void because it was entered in violation of the due process
clause. Defendant maintains it was fundamental error and a manifest
injustice to convict him of a crime that was not charged by the state, i.e.,
second- degree murder. He maintains the Indictment does not contain an
allegation of a depraved mind. Defendant contends the original
Indictment did not put him on notice that he was required to defend
against the element of a depraved mind and this amounted to a denial of
due process.
Moreover, he argues the trial court erred by allowing the
"constructive amendment'' of the original Indictment. Defendant argues
that second-degree murder is a permissive lesser included offense of
felony murder and, under the indictment here, it is not a permissive lesser
included offense. He concludes the second-degree murder charge was a
new and different charge. Defendant argues the court's instruction to the
jury was an impermissible, constructive amendment of the Indictment.
He maintains these errors are fundamental errors because they reach
down to the validity of the trial.
As noted above, this Court disagrees with the Defendant' s analysis
and finds the Indictment provided sufficient notice to the Defendant he
might have to defend against the crime of second-degree murder. More
specifically, the Indictment contained sufficient allegations of the
element of a depraved mind. Thus, this Court concludes the Defendant
was not denied due process. Moreover, because the second-degree
murder charge was not a new and separate charge, there was no
constructive amendment of the Indictment and this Court's instruction to
the jury was proper. Thus, issue III is DENIED.
(Doc. 11-21 at 67-68). Petitioner moved for rehearing. (Doc. 11-21 at 71-79). The state
court denied the motion:
THIS CAUSE came before the Court upon the Defendant's
Motion for Rehearing. The Court has considered the Motion, the case
file, the testimony at the evidentiary hearing, argument of counsel and
relevant legal authority.
The Defendant argues this Court erred in finding second degree
murder was a permissive lesser included offense under the facts of this
case. In addressing the Defendant's claims, this Court noted one of the
purposes of an indictment or information is to fairly apprise the
Defendant of the offense with which he is charged. Leeman v. State, 357
So.2d 703, 705 (Fla. 1978). This Court found that the Indictment for
Count IV specifically incorporated the charge of aggravated child abuse
25
App. 35

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 26 of 30 PageID 2761

into the count. In examining the issue, this Court found the incorporation
of the aggravated child abuse charge (Count III) into the charge of felony
murder (Count IV) put the Defendant on notice he might have to defend
against the permissive lesser included charge of second degree murder.
By utilizing the wording alleging the Defendant maliciously (i.e.,
intentionally, wrongfully and without legal excuse) punished Blake Rupe
by inflicting severe trauma to his head, the Indictment sufficiently alleged
the Defendant acted with ill will, hatred, spite, or evil intent. This Court
concluded that under the circumstances of this case, second degree
murder is a permissive lesser included offense of count IV and, therefore,
counsel was not deficient for failing to object to the charge being
submitted to the jury. This Court affirms its original Order Denying the
Defendant' s Verified Motion for Post-Conviction Relief.
(Doc. 11-22 at 1-2). Petitioner appealed and the Fifth DCA per curiam affirmed. (Doc.
11-22 at 91).
Petitioner relies on Cole v. Arkansas, 333 U.S. 196 (1948) to support his claim
that he was denied due process. (Doc. 2 at 19-20). Cole instructs that “[n]o principle of
procedural due process is more clearly established than the notice of the specific
charge, and a chance to be heard in a trial of the issues raised by that charge, if desired,
are among the constitutional rights of every accused in a criminal proceeding in all
courts, state or federal.” Id. at 201. However, in Lopez v. Smith, the Supreme Court
classified Cole as an “older [case] that [stands] for nothing more than the general
proposition that a defendant must have adequate notice of the charges against him.”
Lopez v. Smith, 574 U.S. 1, 5 (2014).
A conviction for second-degree murder in Florida requires that the defendant
kill “by any act imminently dangerous to another and evincing a depraved mind
regardless of human life, although without any premeditated design.” Fla. Stat. §
782.04(2). The Florida Supreme Court has defined an “act imminently dangerous to
26
App. 36

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 27 of 30 PageID 2762

another and evincing a depraved mind” as “an act or series of acts that: (1) a person
of ordinary judgment would know is reasonably certain to kill or do serious bodily
injury to another, and (2) is done from ill will, hatred, spite or an evil intent, and (3) is
of such a nature that the act itself indicates an indifference to human life.” Montgomery,
39 So. 3d at 255–56 (quoting Bellamy v. State, 977 So. 2d 682, 683 (Fla. 2d DCA 2008)).
Maliciously is defined as “wrongfully, intentionally, and without legal excuse.”
Section 827.03(c), Fla. Stat. (2007). Florida courts have equated depravity of mind
required for second-degree murder with malice in the commonly understood sense of
"ill will, hatred, spite, or evil intent." Ramsey v. State, 154 So. 855, 856 (Fla. 1934);
Turner v. State, 298 So. 2d 559, 560 (Fla. 3d DCA 1974); Aquilera v. State, 975 So. 2d
1270, 1273 (Fla. 3d DCA 2008); Manuel v. State, 344 So. 2d 1317, 1319 (Fla. 2d DCA
1977).
Count IV of the Indictment charged Petitioner with Murder in the First Degree
– Felony Murder:
…on or about the 15th day of December … two thousand-eight, did
unlawfully, while engaged in the perpetration of a certain felony, to-wit:
Aggravated Child Abuse,[ 6] kill BLAKE RUPE, a human being who at
that time was under the age of 18, by inflicting blunt trauma to his head,
thereby causing his death, in violation of Section 782.04(1)(a)2, Florida
Statute
Count III charged Petitioner with Aggravated Child Abuse:
on or about the 15 day of December 2008, did maliciously punish a child named
BLAKE RUPE, during which DAVID J TATARA willfully committed child abuse
upon by inflicting severe trauma to his head, thereby causing BLAKE RUPE to suffer
great bodily harm, in violation of Sections 827.03(2)(b) and (c), Florida Statutes

6

(Doc. 11-1 at 12).
27
App. 37

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 28 of 30 PageID 2763

(Doc. 11-1 at 13). Second degree murder, while not a necessary lesser included offense,
is a permissive lesser included offense of first degree felony murder. The state court
found that because Count IV incorporated the charge of aggravated child abuse as the
underlying felony, the elements of the crime of aggravated child abuse 7 are part of
Count IV. See Doc. 11-21 at 64.
Because Petitioner was charged with causing Blake Rupe’s death by maliciously
punishing him by willfully committing child abuse by inflicting severe trauma to his
head, thereby causing the victim to suffer great bodily harm, he was provided
“adequate notice of the charge[ ]” of second degree murder. Lopez, 574 U.S. at 5.
Furthermore, during the discussion of the jury instructions and prior to the close of
evidence, second degree murder was presented as a lesser included offense and as an
alternative if Petitioner was acquitted of the aggravated child abuse count, either by
the Court or the jury. See Doc. 11-8 at 38-39, 43-49, 54-55; see also Doc. 11-6 at 78
(While presenting argument against Petitioner’s initial motion for judgment of
acquittal, the prosecutor claimed that if aggravated child abuse count was legally
prohibited, then the felony murder charge would be reduced to second degree murder.)

Aggravated child abuse is defined as occurring when a person (1) commits
aggravated battery on a child; (2) willfully tortures, maliciously punishes, or willfully
and unlawfully cages a child; or (3) knowingly or willfully abuses a child and in doing
so causes great bodily harm, permanent disfigurement to the child. Fla. Stat. §
827.03(1)(a) (2007).
7

28
App. 38

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 29 of 30 PageID 2764

The state court’s findings and conclusions regarding this claim were reasonable, in
accord with, and not contrary to clearly established Federal law, as determined by the
Supreme Court of the United States; and were also reasonable, not unreasonable, in
light of the evidence presented in the state court proceeding. See 28 U.S.C. § 2254(d)(1)(2).
IV.

CONCLUSION

For the reasons stated above, the Court finds that Petitioner’s petition for writ
of habeas (Doc. 1) is without merit and, thus, dismisses the petition with prejudice.
The Clerk is instructed to enter judgment accordingly, terminate any pending motions,
and close the file.
In addition, a certificate of appealability and leave to appeal in forma pauperis
are denied. A prisoner seeking a writ of habeas corpus has no absolute entitlement to
appeal a district court’s denial of his petition. 28 U.S.C. § 2253(c)(1). “A [COA] may
issue. . . only if the applicant has made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). To make a showing, Petitioner “must
demonstrate that reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong,” Tennard v. Dretke, 542 U.S. 274, 282 (2004)
(internal citation and quotation omitted), or that “the issues presented were adequate
to deserve encouragement to proceed further,” Miller-El v. Cockrell, 537 U.S. 322, 336
(2003) (internal quotation and citation omitted). Petitioner has not made the requisite

29
App. 39

Case 5:17-cv-00039-WFJ-PRL Document 15 Filed 01/16/20 Page 30 of 30 PageID 2765

showing in these circumstances. Because Petitioner is not entitled to a certificate of
appealability, he is not entitled to appeal in forma pauperis at this time.
DONE AND ORDERED at Tampa, Florida, on January 16, 2020.
s/William F. Jung
WILLIAM F. JUNG
UNITED STATES DISTRICT JUDGE
COPIES FURNISHED TO:
Counsel of Record and Petitioner, pro se

30
App. 40

Case 5:17-cv-00039-WFJ-PRL Document 16 Filed 01/17/20 Page 1 of 2 PageID 2766

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION
DAVID J. TATARA,
Petitioner,
v.

Case No: 5:17-cv-39-Oc-02PRL

SECRETARY, DEPARTMENT OF
CORRECTIONS and ATTORNEY
GENERAL, STATE OF FLORIDA
Respondents.
___________________________________

JUDGMENT IN A CIVIL CASE
Decision by Court.

This action came before the Court and a decision has been rendered.

IT IS ORDERED AND ADJUDGED
Pursuant to the Court's order entered on January 16, 2020, the Petitioner’s petition for writ
of habeas is without merit and, thus, dismisses the petition with prejudice.

ELIZABETH M. WARREN, CLERK
s/H. Iovino, Deputy Clerk

App. 41

Case 5:17-cv-00039-WFJ-PRL Document 16 Filed 01/17/20 Page 2 of 2 PageID 2767
CIVIL APPEALS JURISDICTION CHECKLIST
1.

2.

Appealable Orders: Courts of Appeals have jurisdiction conferred and strictly limited by statute:

(a)

Appeals from final orders pursuant to 28 U.S.C. Section 1291: Only final orders and judgments of district courts, or final orders
of bankruptcy courts which have been appealed to and fully resolved by a district court under 28 U.S.C. Section 158, generally are
appealable. A final decision is one that “ends the litigation on the merits and leaves nothing for the court to do but execute the
judgment.” Pitney Bowes, Inc. V. Mestre, 701 F.2d 1365, 1368 (11th Cir. 1983). A magistrate judge’s report and recommendation
is not final and appealable until judgment thereon is entered by a district court judge. 28 U.S.C. Section 636(c).

(b)

In cases involving multiple parties or multiple claims, a judgment as to fewer than all parties or all claims is not a final,
appealable decision unless the district court has certified the judgment for immediate review under Fed.R.Civ.P. 54(b), Williams
v. Bishop, 732 F.2d 885, 885-86 (11th Cir. 1984). A judgment which resolves all issues except matters, such as attorneys’ fees and
costs, that are collateral to the merits, is immediately appealable. Budinich v. Becton Dickinson & Co., 486 U.S. 196, 201, 108 S.
Ct. 1717, 1721-22, 100 L.Ed.2d 178 (1988); LaChance v. Duffy’s Draft House, Inc., 146 F.3d 832, 837 (11th Cir. 1998).

(c)

Appeals pursuant to 28 U.S.C. Section 1292(a): Appeals are permitted from orders “granting, continuing, modifying, refusing
or dissolving injunctions or refusing to dissolve or modify injunctions...” and from “[i]nterlocutory decrees...determining the rights
and liabilities of parties to admiralty cases in which appeals from final decrees are allowed.” Interlocutory appeals from orders
denying temporary restraining orders are not permitted.

(d)

Appeals pursuant to 28 U.S.C. Section 1292(b) and Fed.R.App.P.5: The certification specified in 28 U.S.C. Section 1292(b)
must be obtained before a petition for permission to appeal is filed in the Court of Appeals. The district court’s denial of a motion
for certification is not itself appealable.

(e)

Appeals pursuant to judicially created exceptions to the finality rule: Limited exceptions are discussed in cases including, but
not limited to: Cohen V. Beneficial Indus. Loan Corp., 337 U.S. 541,546,69 S.Ct. 1221, 1225-26, 93 L.Ed. 1528 (1949); Atlantic
Fed. Sav. & Loan Ass’n v. Blythe Eastman Paine Webber, Inc., 890 F. 2d 371, 376 (11th Cir. 1989); Gillespie v. United States
Steel Corp., 379 U.S. 148, 157, 85 S. Ct. 308, 312, 13 L.Ed.2d 199 (1964).

Time for Filing: The timely filing of a notice of appeal is mandatory and jurisdictional. Rinaldo v. Corbett, 256 F.3d 1276, 1278 (11th Cir.
2001). In civil cases, Fed.R.App.P.4(a) and (c) set the following time limits:

(a)

Fed.R.App.P. 4(a)(1): A notice of appeal in compliance with the requirements set forth in Fed.R.App.P. 3 must be filed in the
district court within 30 days after the entry of the order or judgment appealed from. However, if the United States or an officer or
agency thereof is a party, the notice of appeal must be filed in the district court within 60 days after such entry. THE NOTICE
MUST BE RECEIVED AND FILED IN THE DISTRICT COURT NO LATER THAN THE LAST DAY OF THE APPEAL
PERIOD - no additional days are provided for mailing. Special filing provisions for inmates are discussed below.

(b)

Fed.R.App.P. 4(a)(3): “If one party timely files a notice of appeal, any other party may file a notice of appeal within 14 days after
the date when the first notice was filed, or within the time otherwise prescribed by this Rule 4(a), whichever period ends later.”

(c)

Fed.R.App.P.4(a)(4): If any party makes a timely motion in the district court under the Federal Rules of Civil Procedure of a type
specified in this rule, the time for appeal for all parties runs from the date of entry of the order disposing of the last such timely
filed motion.

(d)

Fed.R.App.P.4(a)(5) and 4(a)(6): Under certain limited circumstances, the district court may extend the time to file a notice of
appeal. Under Rule 4(a)(5), the time may be extended if a motion for an extension is filed within 30 days after expiration of the
time otherwise provided to file a notice of appeal, upon a showing of excusable neglect or good cause. Under Rule 4(a)(6), the
time may be extended if the district court finds upon motion that a party did not timely receive notice of the entry of the judgment
or order, and that no party would be prejudiced by an extension.

(e)

Fed.R.App.P.4(c): If an inmate confined to an institution files a notice of appeal in either a civil case or a criminal case, the notice
of appeal is timely if it is deposited in the institution’s internal mail system on or before the last day for filing. Timely filing may
be shown by a declaration in compliance with 28 U.S.C. Section 1746 or a notarized statement, either of which must set forth the
date of deposit and state that first-class postage has been prepaid.

3.

Format of the notice of appeal: Form 1, Appendix of Forms to the Federal Rules of Appellate Procedure, is a suitable format. See also
Fed.R.App.P. 3(c). A pro se notice of appeal must be signed by the appellant.

4.

Effect of a notice of appeal: A district court loses jurisdiction (authority) to act after the filing of a timely notice of appeal, except for actions
in aid of appellate jurisdiction or to rule on a timely motion of the type specified in Fed.R.App.P. 4(a)(4).

App. 42
-2-

